<html>
<title> - UPDATE ON THE OSCE: RELIGIOUS FREEDOM, ANTI-SEMITISM, AND THE RULE OF LAW</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                 UPDATE ON THE OSCE: RELIGIOUS FREEDOM,
                   ANTI-SEMITISM, AND THE RULE OF LAW

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2016

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-2-1]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   Available via http://www.csce.gov


                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-677 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    ROGER F. WICKER, Mississippi,
Chairman                             Co-Chairman
ALCEE L. HASTINGS, Florida           BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama          JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas            RICHARD BURR, North Carolina
STEVE COHEN, Tennessee               JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                TOM UDALL, New Mexico
RANDY HULTGREN, Illinois             SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania          
LOUISE McINTOSH SLAUGHTER, 
New York

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]










                 UPDATE ON THE OSCE: RELIGIOUS FREEDOM,
                   ANTI-SEMITISM, AND THE RULE OF LAW

                              ----------                               
February 11, 2016

                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Joseph R. Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     4

                                 MEMBER

Hon. David Schweikert, a Representative in Congress from the 
  State of Arizona...............................................     6

                                WITNESS

Michael Georg Link, Director, Office for Democratic Institutions 
  and Human Rights...............................................     6

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    24
Prepared statement of Hon. Benjamin L. Cardin....................    25
Prepared statement of Michael Georg Link.........................    27

                   MATERIAL SUBMITTED FOR THE RECORD

Prepared statement submitted by Bryan Ardouny, Executive 
  Director, Armenian Assembly of America.........................    30

                                 [iii]

 
                     UPDATE ON THE OSCE: RELIGIOUS
                        FREEDOM, ANTI-SEMITISM,
                          AND THE RULE OF LAW

                              ----------                              


                           February 11, 2016

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 1 p.m. in room HVC-210, House 
Visitor Center, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Hon. 
Joseph R. Pitts, Commissioner, Commission on Security and 
Cooperation in Europe; and Hon. Benjamin L. Cardin, Ranking 
Member, Commission on Security and Cooperation in Europe.
    Member present: Hon. David Schweikert, a Representative in 
Congress from the State of Arizona.
    Witness present: Michael Georg Link, Director, Office for 
Democratic Institutions and Human Rights.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And good 
afternoon, and welcome to our very distinguished guest and 
witness, the head of ODIHR, Michael Link. Thank you for being 
here. We deeply appreciate it.
    Today we'll discuss several human rights issues and human 
rights crises in Europe and Eurasia. With the collapse of the 
Soviet Union and the end of the Cold War, many people expected 
that freedom, democracy and peace would spread throughout 
Europe and Eurasia. And I remember--I have been in Congress now 
for 36 years, and we all talked about the peace dividend. 
Unfortunately, the peace dividend was very short on dividend, 
and new challenges very quickly emerged.
    And yet now the religious freedom of Christians and people 
of other faiths is being regularly violated. Russia invaded its 
neighbor Ukraine, illegally annexed Crimea, and is fueling and 
funding violent proxies in Eastern Donbas region of that 
country. Deadly anti-Semitism is again stalking European Jewish 
communities. The worst refugee and migrants' crisis in Europe 
since World War II has engulfed the entire continent. Autocrats 
are using the law and acting outside the law to crush 
democratic opposition to their despotism.
    Violent anti-Semitic attacks increased 100 to 400 percent 
in some European countries between 2013 and 2014. Anti-Semitism 
and the evil goal of killing Jewish people is hard-wired into 
ISIS and those it inspires.
    Perhaps no other group in Europe is more at risk from ISIS 
attacks than European Jewish communities. That is why I 
authored House Resolution 354 as a blueprint for vital actions 
that are needed to prevent another Paris, Brussels or 
Copenhagen. The House of Representatives passed it unanimously, 
and I intend to hold a hearing over the coming weeks to explore 
what is necessary to ensure that these actions are taken.
    In Crimea, the occupying authorities have targeted and 
retaliated against the Crimean Tatar people for opposing the 
annexation and the rule that has followed. Crimean Tatars have 
been arrested, detained, interrogated, and sometimes charged 
with extremism, illegal assembly, or belonging to an 
unregistered religious group.
    Religious minorities, including the Ukrainian Greek 
Catholic Church, have likewise been repressed. Crimeans who 
opposed or oppose the Russian takeover of Crimea or who have 
been unwilling to seek a Russian passport have been at risk of 
a crackdown. Restrictions have proliferated, including even on 
the teaching of the Ukrainian language or access to Ukrainian 
culture.
    Repression is also rife in Azerbaijan. The Commission 
recently held a hearing on the terrible plight of political 
prisoners in Azerbaijan, particularly the imprisoned of Radio 
Free Europe/Radio Liberty journalist Khadija Ismayilova. 
According to the Committee to Protect Journalists, Azerbaijan 
leads all the countries of Eurasia in jailing journalists.
    In 2015, the government imprisoned many well-known 
activists, including Anar Mammadli, the courageous head of 
EMDS, the leading election monitoring organization in 
Azerbaijan. He spoke the truth about the fraudulent 2013 
presidential election and is still paying the price.
    I met with Anar's father--a very gentle man--just a few 
months after he was arrested and saw how the entire family is 
suffering from that injustice.
    More than 40 years ago, all the countries of Europe and the 
United States, Canada, formed the Conference on Security and 
Cooperation in Europe to prevent and respond to these kinds of 
crises. Today we'll hear about how the Organization for 
Security and Cooperation in Europe, the successor to the 
Conference, is responding to these challenges.
    Our very distinguished witness today, Michael Georg Link, 
is the director of the OSCE's ODIHR, which stands for the 
Office of Democratic Institutions and Human Rights, and has 
done a wonderful job in that position. And we thank him for 
being here.
    Director Link has held that position since July of 2014. 
Previously he was Minister of State for Europe in the German 
Government, focusing on the OSCE-EU Council of Europe and NATO. 
From 2005 to 2013, Director Link was a member of the Parliament 
in Germany. And for most of that time he was an active member 
of the OSCE Parliamentary Assembly, a key part of the OSCE. He 
is former chairman of the supervisory board of the Center for 
International Peace Operations, or ZIF; the board of the German 
Foundation for Peace Research; and past council member of the 
Foundation for German-Polish Cooperation.
    Director Link continues to be active in many international 
NGOs, including the German Council on Foreign Relations, the 
German Association for Eastern European Studies, the Southeast 
Europe Association and the German Atlantic Association. I'd 
like to now yield to Commissioner Pitts for any opening 
comments he might have.

HON. JOSEPH R. PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Pitts. Thank you, Mr. Chairman. Thank you very much for 
hosting this important hearing.
    And welcome, Director Link.
    The ongoing reports of crackdowns on civil society, of 
religious persecution, of other human rights abuses coming out 
of occupied Eastern Ukraine, the Crimea, Central Asia, have 
made the need for this hearing and the work of this Commission 
and the work of OSCE more generally abundantly clear.
    In particular, I would like to draw attention to the 
horrific abuses committed against Protestants, Catholics, and 
Orthodox Christians not loyal to Moscow by pro-Russian forces 
during the occupation of Crimea and Eastern Ukraine. On June 8, 
2014, four evangelical ministers were abducted from church at 
gunpoint, later executed by pro-Russian militants.
    These murders were just the tip of the iceberg. Using 
accusations of, quote, ``supporting Western governments,'' end 
quote, pro-Russia militants proceeded to abduct dozens of 
religious leaders and members of religious communities in 
Crimea and in Ukraine. Many of the abductees who escaped or 
were released reported being beaten, stabbed and subjected to 
electrical shock and other forms of torture. In addition, 
dozens of structures and places of worship belonging to faith 
groups were destroyed or appropriated for military use. Some 
were also reportedly transferred to the ownership of the Moscow 
patriarchy of the Orthodox Church.
    To date these abuses have never been acknowledged by the 
Russian Government or the separatists operating in Eastern 
Ukraine and no serious efforts have been made to bring the 
perpetrators to justice. This has contributed to the widespread 
climate of impunity for human rights violators in Crimea and 
Eastern Ukraine, a climate that will only serve to deepen the 
already cavernous divide between the U.S., Europe and a Russian 
Government intent on expanding its sphere of influence, 
regardless of the cost to human life, human dignity.
    Lastly, I would like to reiterate a call that the Tom 
Lantos Human Rights Commission, which I co-chair, has already 
made--one of the immediate release of Ukrainian fighter pilot 
Nadiya Savchenko. Ms. Savchenko continues in her unlawful 
imprisonment by the Russian Federation. Her relocation to 
Russia, the Russian effort to prosecute her, are illegal.
    The Russian Federation's treatment of Nadiya Savchenko is 
inconsistent with its international legal and humanitarian 
obligations. And I join the Parliamentary Assembly of the 
Council of Europe, the European Union and others in the 
international community in calling for the immediate and 
unconditional release of Ms. Savchenko and other Ukrainians 
unlawfully imprisoned in Russia.
    So again, thank you, Director Link, for appearing before 
the Commission today, for your work to combat many of the 
abuses I've just referred to and others.
    And thank you again to Chairman Smith for holding this 
event. Together I believe we can shine a light on this part of 
the world and, in doing so, bring much-needed hope to the 
oppressed and to the hopeless.
    With that, I yield back.
    Mr. Smith. Commissioner Pitts, thank you so very much.
    As you know, Director Link, this is a bicameral commission, 
and we also have members of the executive branch. We are joined 
by a man that has served on this Commission for decades, a good 
friend and colleague, Ben Cardin, Senator Cardin, who is also 
the Special Representative for the Parliamentary Assembly on 
Anti-Semitism, Racism and Intolerance.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, Chairman Smith, first, thank you very 
much. I'm just trying to catch up in years to you. Chairman 
Smith has been on this Commission for a very, very long time 
and has done incredible service to all three of the priorities 
of the OSCE, but particularly human rights dimensions.
    So Director Link, it's a pleasure to have you here. And I 
mean that. First of all, you represent in ODIHR our highest 
priority in the Helsinki Commission. And secondly, you 
personally have been a real champion on this issue. Chairman 
Smith referred to the days of being a parliamentarian and the 
days of working together. It was the German delegation and the 
American delegation that brought forward the anti-Semitism 
strategies that have led to so many changes in how we deal with 
anti-Semitism in the communities. And your personal leadership 
here was critical. So I just want everyone to understand we 
have a person who's really been one of the champions on human 
rights. And it's a pleasure to have you here today.
    There's a lot we can talk about. I'm sorry there's so many 
issues that the urgencies require our attention. And I start 
with the 1991 Moscow document that said the participating 
states emphasize that issues relating to human rights, 
fundamental freedoms, democracy and the rule of law are 
international concerns, as respect for these rights and 
freedoms constitutes one of the foundations of international 
order. They categorically and irrevocably declare that the 
commitments undertaken in the field of human dimension of the 
OSCE are matters of direct and legitimate concern to all 
participating States and do not belong exclusively to the 
internal affairs of the state concerned.
    And yet one of our States, Russia, continues to challenge 
that statement, the Moscow Declaration. So it's challenging. 
And I start with Russia because Russia's just disregard for all 
the fundamental principles of the OSCE with its incursion into 
Ukraine, the eastern part, and then taking over Crimea, it's a 
matter of urgency that we continue to keep the spotlight on 
Russian behavior. It's of all our concern.
    And it's not just limited to Ukraine. I could talk about 
our visits to Moldova and Georgia and the scars from the 
Russian interference. And now we see that Russia is trying to 
influence the internal affairs of other countries through its 
actions. And we could go well beyond the OSCE region and talk 
about Syria, but we won't put that burden on you today. But we 
do have the burden of the OSCE region, and we really need to 
deal with that.
    The chairman mentioned that--and we had a chance to talk--
that I have the responsibility as the Special Representative on 
Anti-Semitism, Racism and Intolerance. And we've worked 
together on that, and I think the Commission should know that. 
The ODIHR and your staff has been particularly helpful to us as 
we planned a strategy.
    Our priority is the safety of the Jewish communities in 
Europe, and it's a matter of urgency. It's still a very high-
risk factor where there's still a rise of the security issues 
of many of the Jewish communities in Europe. We are very 
concerned about dealing with the discrimination in our 
communities on refugees. We talked about that. Some countries 
that have been historically strong on human rights are showing 
real concerns as to the language and policies that they're 
adopting in regards to vulnerable refugees.
    We're going to deal with profiling, racial profiling, by 
law enforcement. It's a problem in Europe. It's a problem in 
the United States. I've introduced legislation to deal with it. 
We've taken some actions. But it's a matter of major concern. 
So we want to protect all vulnerable populations.
    This Commission has taken a direct interest in the Roma 
population. That's a continuing concern, and we will continue 
to press ODIHR to help us as we deal with countries that have 
discriminatory practices against the Roma population.
    We could talk about a lot of particular countries. I need 
to mention Azerbaijan. We were there, as you know, last year. 
And Leyla and Arif Yunus are no longer being held in prison, 
but they're not free to leave. And they have urgent medical 
needs. There should be no charges against them. They should 
have their freedom. We've fought many battles about the rights 
of people to be able to have their ability to travel. And I 
would hope that they're able to have their ability to travel, 
and I would hope that that will remain high on your agenda.
    Let me just conclude with this one observation. When the 
OSCE Parliamentary Assembly and the OSCE institutions, 
including ODIHR, work together, we're a lot stronger. And I 
think we have improved the relationships dramatically in the 
last couple of years, thanks in large part to your leadership. 
And your visit here demonstrates your sensitivity and 
commitment to having a strong policy by engaging the 
parliamentarians in your work. We look forward to doing that 
with you.
    And one last point, Mr. Chairman. We have to here make sure 
that the participating States give ODIHR the resources they 
need. And I wish the budgetary systems at ODIHR--at OSCE were 
different than they are. But they are what they are. And the 
direct supports given by governments for particular missions is 
a critical ability for ODIHR to be able to do its work. And we 
have certain responsibilities to assist you in that. And I can 
assure you that the members of this Commission will do what we 
can here in the United States.
    Again, thank you for being here.
    Mr. Smith. Thank you very much, Senator Cardin.
    I'd like to now yield to a good friend and colleague, Mr. 
Schweikert, who has been on parliamentary assemblies and has 
been a very active member on behalf of all the issues that we 
are concerned about here today, human rights.
    Mr. Schweikert. You didn't warn me you were going to do 
that.
    Mr. Smith. OK.

 HON. DAVID SCHWEIKERT, A REPRESENTATIVE IN CONGRESS FROM THE 
                        STATE OF ARIZONA

    Mr. Schweikert. Senator, it's good to see you. Very well. 
I've missed you.
    Look, for many of us--and I'm blessed to have some staff in 
our office who are just brilliant at trying to track the number 
of moving parts. And on a personal basis, I have a great 
interest in the corruption and banking issues that have 
happened in Moldova and the cascade effects that will happen 
there and the potential effect of, you know, do we end up with 
losing a lot of the ground, particularly in that region, the 
continuing threats of the frozen conflicts, and particularly 
considering the current financial status of what's happening in 
Russia and their ability to continue these sort of proxy 
territories. Are we heading towards a potentially dangerous 
environment where the falling of resources produces an 
opportunity where we have flare-up of conflicts in fairly 
unstable areas?
    So that sort of cascade effect of what are the threats 
right now in front of us that would be laid out, both--
everything from what appears to be the rise of anti-Semitism, 
whether it be driven by demographic changes in France and other 
areas, all the way down to some of the economic stresses and 
the threats they're going to bring to us from stability in the 
region. And with that, I yield back.
    Mr. Smith. Thank you very much.
    Director Link, the floor is yours.

      MICHAEL GEORG LINK, DIRECTOR, OFFICE FOR DEMOCRATIC 
                 INSTITUTIONS AND HUMAN RIGHTS

    Mr. Link. Chairman Smith, distinguished members of the 
Helsinki Commission, thank you very much for having me here. 
And when I speak here today, I speak especially also on behalf 
of the very dedicated team, which I have the honor really to 
lead in ODIHR. It's about 150 staff based in Warsaw, great 
experts in all areas. We are working in the human dimension, 
and therefore my first word of thanks is also to them, because 
I couldn't--wouldn't be here if we didn't have that team. And 
we are dedicated to that.
    Thank you, as parliamentarians, for your interest in that--
bipartisan, bicameral. You mentioned it, Chairman Smith. That 
is ever more important when we have to defend these so 
important achievements which we have together in the OSCE. And 
let me say, on a personal note, for me OSCE is also a very 
transatlantic and important instrument in a time where very 
often so many go it alone. No, we need more action together. 
And therefore, OSCE, 40 years after its foundation, is as 
important as on day one, especially when it comes to the human 
dimension of security. Nobody else talks about human dimension 
of security, because that is what the colleagues back then in 
1974 said, that there is no lasting security without respect 
for human rights.
    And Senator Cardin rightly reminded about the Moscow 
Declaration. Let me add it was even recommitted in Astana in 
2010, and not only by a ministerial meeting but by a summit, by 
a summit in Astana, meaning the highest decision-making body 
signed also by Russia. Then, therefore, these commitments, they 
are valid. And our job is to work in assisting to implement 
these commitments.
    So thank you for having me here indeed. And let me say that 
in the 25th year of our existence, of ODIHR, the scope of our 
work is as broad and deep as ever, whether in the fields that 
we are probably most known for, election monitoring, or, as we 
call it, election observation, or in fighting anti-Semitism, or 
in the areas of fighting discrimination--I will speak about 
that also against Christians or Muslims--or fostering 
integration of the Roma minority in our societies, or combating 
trafficking of human beings, or the extremely important area in 
democratic institution-building, human rights monitoring. All 
these areas certainly are areas where we can, with our team, 
offer a broad set of activities in assisting the participating 
States of the OSCE, and this despite our dwindling resources.
    Let me start by expressing a serious concern of mine. I am 
deeply troubled about the decreasing attention human rights are 
receiving in the OSCE area. And I don't speak about the 
attention among parliamentarians. We have gladly this very 
close cooperation with the OSCE Parliamentary Assembly. And 
indeed, we invest at ODIHR a lot in that. And I think this 
cooperation must even go beyond electoral observation.
    In so many areas, we can--with the combined visibility and 
credibility of parliamentary activities and expert activities--
we can really achieve something together.
    The OSCE is a major regional organization whose very 
essence is to connect human rights to security. But its 
commitments in the field of human rights are less and less 
respected--you have mentioned it also in your introductory 
statements--in numerous participating States.
    The OSCE is therefore no longer able--I'm sorry to say 
that--in its ministerial meetings, the last time in Belgrade in 
2015, to agree in consensus on a new text in its human 
dimension. That was a disappointment, certainly. There was a 
lot of effort by the Serbian chairmanship at the time, but 
consensus was not possible. And therefore, its main 
institutions in the human dimension, like ODIHR, are not very 
often also funded properly, because the consensus also needs to 
be made on the budget in order to fulfill our mandates.
    That is why our work depends, as it has been mentioned, 
more and more also on voluntary contributions from outside the 
official budget. And I would like to ask you for your support 
to continue ODIHR's work, driven by our common values.
    So that is the situation we are in: an increasing number of 
States, not respectful of their commitments, dwindling 
resources, but more and more crises.
    Let me, in my answers, before--I will gladly answer, all 
sort of additional questions. Let me first maybe focus on three 
aspects--fighting anti-Semitism; Ukraine, that has been 
mentioned both by Congressman Pitts and by Chairman Smith; and 
certainly, then the whole area, what we can do also in the area 
of migration.
    U.S. Ambassador to the United Nations Samantha Power put it 
last year at the 2014 Berlin declaration event, and I quote--
she said rising anti-Semitism, quote, ``is often the canary in 
the coal mine for degradation of human rights more broadly,'' 
end of quote.
    All OSCE participating States agree on this principle. 
Anti-Semitism is indeed an alarm bell signal for human rights 
overall. ODIHR's activities, therefore, today are very, very 
much active in this area. We revolve our activities around 
three pillars that are constantly mentioned in our commitments: 
hate crimes, education and Holocaust remembrance.
    First, some words on hate crimes. Anti-Semitic hate crimes 
remain a challenge throughout the region. A recent attack and 
many more attacks also in other countries--in France, but all 
over Europe--it was happening that Jewish people, wearing 
religious symbols like the kippah, have been increasingly often 
attacked on the streets in daylight. Also, in the U.S., civil-
society organizations have reported an increased number of 
registered anti-Semitic incidents on college campuses.
    ODIHR has a strong mandate to collect and report on hate-
crime data and on capacity-building for law enforcement. 
Unfortunately, only 10 out of 57 States really here honor their 
commitments, because only 10 out of 57 States annually report 
in our hate-crime reporting official data collection. And in 
many other countries, in 29 out of 57 countries, civil-society 
actors are reporting to us. So there is a huge gap to be 
filled, and we think that there is much more to be reported.
    The second pillar of our work in fighting anti-Semitism is 
related to the development of educational materials, which are 
shaped by the local reality on the spot. Our teaching materials 
have been implemented in 12 participating States--that is quite 
a number--with the potential for expansion to additional 
countries. We would like to do that very much. These teaching 
materials are more important than ever, when expressions of 
anti-Semitism on the Internet are various, and often go hand in 
hand with declarations that aim at rewriting Second World [War] 
history and its atrocities.
    And this leads me to the third pillar of the fight of our 
work against anti-Semitism. That is Holocaust remembrance. To 
date, 34 States out of 57 commemorate the Holocaust on 27th of 
January, while many countries hold commemorations on different 
dates. In almost two thirds of OSCE participating States, at 
various levels of education, children are taught about the 
tragedy of the Holocaust. Where education and remembrance do 
not suffice, we should strengthen our efforts in ensuring the 
security of Jewish communities, it has been said. So these 
activities in securing Jewish communities and that they will 
have a future on the European continent is absolutely key also 
to our activities. Otherwise, if we are not ready here to read 
the alarm bells and to read the alarm signals and to draw the 
consequences, Jewish communities are threatened to disappear.
    All these pillars we combined in our newest project, called 
Turning Words Into Action. It's a project set out to help turn 
these words into action by providing government officials, 
parliamentarians, and civil society with the knowledge and 
skills they need to effectively address anti-Semitism. The 
project was, by the way, made possible thanks to a generous 
contribution, multiyear generous contribution, by Germany, very 
much driven by colleagues of you also in the Bundestag, and 
giving us some possibility, how we can long-term work on 
projects and not being here stopped by needs of dwindling 
budgets.
    We would like to do more of this work, for instance in the 
field of fighting discrimination of Christians--a topic of huge 
importance in the OSCE States to which I am personally very 
committed. With more funds in this area, we could do much more 
work in this field. And let me also say very clearly certainly 
that stretches, as well, to fighting intolerance against 
Muslims.
    Let me switch to Ukraine. You have mentioned also in your 
introductory statements your huge concern about the situation 
there. Let me give you a short update on our activities in 
Ukraine, where we are and will be very active.
    The situation in the country is still difficult--we all 
know that--despite some progress made in the past two years. 
Let's not neglect what has been made --achieved also by 
Ukrainian lawmakers. But still, the burden, what is to be done, 
is enormous. Therefore, we try, and we are supporting, reform 
in Ukraine through strengthening its civil society. We are 
supporting reform in Ukraine through observing its elections 
and giving recommendations on how to improve in this area. When 
I say strengthening civil society, we do it very concretely 
with grassroots initiatives, which we support all over the 
country.
    We are supporting reform in Ukraine through giving legal 
advice to the Parliament on how best draft laws in accordance 
with international human rights standards can be adopted. A 
little bit of a hidden duty, or hidden championship what ODIHR 
has, very often people think we are only about election 
observation and human rights monitoring. No, legal advice--
giving legal opinions on draft laws, that is one of our key 
resources. And we are very actively working with the Rada on 
this area.
    And we are supporting reform in Ukraine in bringing 
religious communities together--you mentioned that as well--to 
become engines of national dialogue. It is extremely important 
that the different religious communities of Ukraine--the 
different Orthodox groups, Catholic, all sorts certainly also 
of Protestant or Evangelic[al], but also including Jews--the 
Jewish communities--it's very important that these different 
religious communities work together and do not fall in the trap 
of mutual misunderstanding and of different hate speech. It's 
very important, this last point, and therefore we are 
invigorating our efforts in that area.
    Let me stress two more points. The human rights situation 
on Crimea is deeply worrying. We have published our human 
rights monitoring report on that, and I'm glad to give this 
report also additionally to you today in a hard copy. You have 
it certainly since long, but it's a very important thing, I 
think--a very important report we did this last year. Despite 
not having been granted access, ODIHR was able to publish this 
comprehensive report on the situation six months ago, a strong 
document showing the difficult state of the rights of national 
minorities and other citizens. We are ready to follow up on 
this report, but for this we need access for ODIHR monitors to 
the peninsula.
    We have to make--that's my second point here--to make all 
possible efforts to bring peace to Ukraine. I believe that the 
so-called Minsk package, agreed upon last year, is still the 
best way to achieve it. ODIHR stands ready to do its part in 
observing possible local elections in the conflict areas of the 
Donbas regions as part of a political settlement. But these 
elections are contingent upon a sustainable ceasefire and the 
political will to hold it, and then also the political will to 
hold the elections. Both needs to be there: the political will 
to hold the ceasefire and to hold the elections. The equation 
is simple: where there is war, there is no voting. Elections 
are only possible where there is peace, or at least a lasting 
ceasefire. Bullets have to be replaced by ballots. We, 
therefore, fully share the view of the German chancellor, who 
reconfirmed last week after a meeting with Ukrainian President 
Petro Poroshenko that a ceasefire is the essential precondition 
for the implementation of the Minsk package.
    Having said this, Mr. Chairman, I think I will, with my 
introductory statement, stop here and be ready to answer your 
questions in all other areas you would like to address me. We 
are again, as ODIHR, we are happy for the opportunity, really, 
to be here. And let me underline again I think the 
Parliamentary Assembly is the absolute key partner for ODIHR. 
When we join our efforts, when we work hand-in-hand, then we 
can really make a difference. Thank you.
    Mr. Cardin. Mr. Chairman, if I might just excuse myself. We 
have votes starting in the Senate. But I again thank you very 
much for your----
    Mr. Smith. Thank you, Commissioner Cardin.
    And thank you, Director Link, for that excellent testimony. 
And, without objection, your full statement will be made a part 
of the record and excerpts from those reports, or any reports 
you think are important, we'd like to make a part of the record 
as well.
    Let me just ask a few opening questions, then I'll yield to 
my colleagues. First, on the issue of anti-Semitism: As I said 
in my opening, the House passed a very comprehensive resolution 
that not only reiterates the importance, as you pointed out, of 
Holocaust remembrance, which we have passed previous 
resolutions in the House and Senate, but it focuses on the 
importance of what we call the Department of Homeland Security 
here--we have them at every one of our state levels--of 
partnering with Jewish communities, synagogues, to ensure that 
resources that are real are expended to detect and protect 
against acts of anti-
Semitic hate. And I can tell you, New Jersey, New York, 
Pennsylvania, most of our states really work very closely, as 
well as our Department of Homeland Security here in Washington, 
to make those resources available because, sadly, regrettably, 
even our own FBI and its statistics on hate crime shows an 
absolute disproportionality of hate crimes committed against 
Jewish individuals and sites vis-a-vis Christian or Muslim here 
in this country. Despite being less than 2 percent of the 
population, we're talking about 65 to 70 percent, depending on 
the year, committed against Jewish individuals and Jewish 
institutions. It is--there's no comparison. Muslims, it's about 
10 to 11 percent, and Christians approximately the same amount. 
And the numbers of Christians far exceeds, in this country, all 
other populations.
    So it's something that I think, from an actionable point of 
view, huge progress can be made if we could get the countries 
to say--don't just say you're chronicling, and that's 
important--remember, Sharansky at the Berlin conference said if 
you don't chronicle it, you can't fight it, and you're doing a 
wonderful job trying to get countries to provide that important 
data. But this whole idea of tangible assistance, making sure 
that vulnerabilities are found, threats followed up 
aggressively. I remember, when we first started this, some of 
our friends in certain countries, including France, were 
calling these acts of hooliganism and other--and desecrations 
that were clearly--swastikas on a synagogue, what is that if 
not anti-Semitic hate? And it gets even worse when people are 
targeted because they're wearing a yarmulke and beaten. So if 
you could speak to that.
    I would also ask, if I could, on the issue of trafficking. 
Again, thank you for your work on that. We met with Ambassador 
Madina Jarbussynova yesterday, and she's doing her level best, 
and her staff, to promote the--and as you know, I'm the OSCE PA 
special rep for trafficking, so we talk the same language and 
we're working on many of the same initiatives. But I would ask 
you, if you could, tell us what the status is of the United 
States seconding an expert to ODIHR to work on issues related 
to trafficking. And maybe elaborate a little bit on the refugee 
crisis as it relates to trafficked persons, women in 
particular, and children, because as you've pointed out 
previously as well, there's thousands of children who are 
separated, unaccounted for.
    I would note parenthetically on Monday the President signed 
the International Megan's Law, and I will give you a copy of 
that text and an op-ed I did for The Washington Post. It seems 
to me that more countries need to have a Megan's Law to begin 
with, with registries so we know when there is a convicted 
pedophile and sex offender who presents a risk in their own 
locale but also may travel and then abuse children in other 
countries in secret. We're trying to get International Megan's 
Law sharing to become much more robust so that we know when 
people go from here to Germany and vice versa, or from here to 
any other part of the world. So if you could speak to that.
    And then I'll come back to some other questions after 
yielding to my colleagues.
    Mr. Link. Thank you very much, Chairman. And I will 
certainly also--I'm sorry, I forget--did forget to answer, 
also, the question of Congressman Schweikert regarding Moldova. 
I will include it.
    And, well, with the Jewish communities, let's take an 
example. I think all of us have been shocked by the events in 
Denmark. And why could that happen? Well, there are a lot of 
explanations. But certainly one thing, which--what makes it 
easier for everybody in terrorist attacks is that traveling 
across the borders is relatively easy, especially in the 
Schengen Area. But therefore, the right solution would not be 
to close down the borders completely, but to increase the 
security by the necessary means without reducing the liberty to 
travel. It's a challenge which we face in every area: How do we 
provide security while not reducing liberty, and to bring that 
together in the right balance?
    We try, first of all, to raise awareness that Jewish 
communities, that their security is also our security. And then 
we welcome very much that Denmark now has increased a lot, the 
security of synagogues. I think that needs to be done in many 
more countries, in many more places, because Jewish communities 
must be actively protected. It's not a question of passive 
protection. It's very important to work with them on that, and 
certainly not in a way that says, OK, we know what is good for 
you. No, it needs to be defined together with Jewish 
communities. Therefore, for us to work with the Jewish 
communities and then with the governments and parliamentarians 
concerned is absolutely key.
    In trafficking, this is an old standing point, and I thank 
you that you mentioned our colleagues in Vienna. As you know, 
we have a division of labor. Part of the job is done by the 
colleagues in Vienna. The Secretary General of the OSCE has his 
team. We are, especially when it comes to human rights, human 
dimension, we are doing our part. And by request, especially 
from the United States, ODIHR is now relaunching its activities 
on combating trafficking of human beings.
    The post--what you mentioned, the seconding--we are very 
happy that we enjoy a lot of support now by the United States 
of America. The post will be filled soon. There are several 
very, very qualified people in the recruitment right now, and 
we are happy to announce that we can start where we suspended 
our work some years ago. We have the guiding principles on 
human rights in the return of trafficked persons. We have [the 
reigning ?] measures for States that the human rights of 
trafficked persons are being respected. The focus of human 
rights of trafficked persons in the context of criminal justice 
and migration policies, and a special focus on women and 
children also in the context of refugee crisis.
    Maybe you ask, why do I say we can start where we suspended 
our work some years? Well, that is, unfortunately, also linked 
to the fact that dwindling resources do not make us--do not put 
us in a position to be active in all areas where we would like 
to be. Thanks to the support also from the United States, now 
we can do that again.
    That brings me directly to your linked question with that, 
the refugee crisis. It is, indeed, an enormous challenge for 
Europe and the OSCE area as a whole. But right now--especially 
in the light of the unfortunately ever-increasing conflict in 
Syria; also with unpredictable amounts of refugees and 
migrants, especially refugees--those who flee bombings, when we 
see the last pictures of Aleppo and what happens there at the 
borders between Turkey and Syria. They are certainly, I think 
nobody is untouched by that.
    I think that the lack of regional cooperation between many 
States in the OSCE, despite their commitments in the OSCE, is a 
problem because this refugee crisis cannot be solved by one 
alone, only with a joint approach. There is, unfortunately, for 
the time being no consensus by the States to decide on concrete 
action by OSCE structures. And, as you know, we need consensus 
in order to act in the OSCE.
    ODIHR, therefore, tried to do as much as we can alone. We 
prepared to do human rights monitoring of treatment of 
refugees, especially in the so-called corridor leading from the 
Mediterranean to the Northern European countries--or, some call 
it, the Balkan route. Last fall, ODIHR organized an expert 
panel, a meeting on the refugee crisis and related hate crimes. 
We produced findings and written. We shared it with the 
participating states and the Parliamentary Assembly. Our main 
findings, in brief, were that there are numerous vulnerable 
groups that need special attention. And here we come back to 
the situation of children--especially children, but also women 
in general and unaccompanied minors, elderly people. Roma, by 
the way, as well. There are, I repeat, numerous vulnerable 
groups where we need--definitely need very much to point to 
states that there must be a human rights-based approach in 
dealing with this crisis. We cannot treat these people coming 
as refugees as criminals or potential criminals. Yes, we need 
exactly to increase security; that is clear. But while doing 
that, we need a human rights-based approach to fighting this 
crisis.
    We have to study, therefore, also impacts on areas like 
anti-
Semitism and discrimination of Muslims because one phenomenon 
can follow on the other. And let me repeat again this need for 
a human rights-based approach must be hold also when it's 
difficult. In the end, let us not forget it is also important 
to find a way on the answer which is respectful of the Geneva 
Convention of the Status of Refugees.
    Mr. Smith. Before yielding to Commissioner Pitts, on 
December 9th, I convened a hearing. It was the second in a 
series on the need to declare that what is happening to the 
Christians is a genocide. The President was contemplating doing 
such a designation for the Yazidis. So we put together a 
hearing. We had--even the head of the Yazidis said there's no 
doubt that the Christians are suffering a horrific genocide in 
terms of large numbers of people being beheaded, being told 
they must change their faith, or lose their life or be raped or 
otherwise maltreated. That hasn't happened yet, but we're 
pushing hard for it.
    So my hope would be--because we know the Christians very 
often are excluded from refugee flows, particularly in the 
origination--in camps and places where they are just unwelcomed 
a second time. I do hope that there will be an effort to make 
sure that there is a full embrace of those Christians who are 
fleeing this tyranny.
    I'd like to go to Commissioner Pitts.
    Mr. Pitts. Thank you, Mr. Chairman.
    Again, thank you, Director Link, for being here today.
    On Ukraine, what's your current assessment on the current 
human rights and rule of law in the so-called Donetsk People's 
Republic and Luhansk People's Republic? And have the number or 
the severity of human rights abuses changed in the last few 
months, or do you see any prospects of change, given this 
current status?
    Mr. Link. Thank you, Congressman.
    The human rights situation in these certain areas, however 
we call it, in the Donbas area in the so-called People's 
Republic, they are increasingly affected the longer the war 
goes. The longer the conflict goes, the more affected is the 
region, certainly. And therefore, the population remains and is 
partially even more affected by this armed conflict. Vulnerable 
groups especially suffering--again, children, the elderly, 
minority groups. Roma community, by the way, as well; we have 
alarming reports on that. And all other persons in need.
    It begins already with the question, where do I get my 
money from? Pensions, water supply. So the situation certainly 
is of concern. There are severe humanitarian conditions. 
Electricity, I could add to that as well, is of concern.
    And we have the problem of internal displacement, which is 
a huge challenge throughout the country. According to the 
latest UNHCR--the United Nations High Commissioner for 
Refugees--has published on its homepage--I looked at it 
yesterday again to give you the concrete figure--is, again, 
speaks about 1.8 million--1.8 million internally displaced 
persons in Ukraine and several hundred thousands displaced into 
Russia. So that shows the sheer dimension of the problem. And 
let's not forget that Ukraine is taking care of these refugees, 
the 1.8 [million], mostly themselves. These people are not 
coming to Germany or other places, France as well. But Ukraine 
therefore deserves even more our support because they care 
about--they have to really be there for these internally 
displaced persons.
    We are working very closely with the United Nations High 
Commissioner for Human Rights. We have a little bit of a 
division of labor there because we take care to mutually 
reinforce our activities. And we try--sometimes they feed into 
our reports or we feed into their reports. Mostly active in 
eastern Ukraine, Donbas, is the high commissioner with his 
team. And therefore, we share the findings of his regular 
reportings. But independent of that, we support civil society 
groups to monitor human rights violations in the Donbas in the 
framework of our ODIHR project on capacity building of the 
Ukrainian civil society.
    If I may, a brief word on Moldova? I'm sorry.
    Mr. Pitts. Let me just follow up on Crimea.
    Mr. Link. Yes.
    Mr. Pitts. Your office--the Office of the OSCE High 
Commissioner on National Minorities released a comprehensive 
report on the human rights situation in Crimea. The report 
identified widespread human rights violations and 
discrimination against religious, national minorities; 
repression of individuals, groups opposed to the illegal 
annexation and who did not possess a Russian passport; and 
legal irregularities of the Russian-occupied peninsula. And it 
flagged a failure to investigate Russian so-called self-defense 
forces accused of these extrajudicial killings and torture. 
Have you seen any improvement at all in the last six months? 
You had a number of concrete recommendations. Can you tell if 
any of these recommendations have been acted on?
    Mr. Link. No, we have for the time being no concrete 
possibility to check, because it needs to be checked now, on 
the spot. We would call and we would like to have access on the 
spot, on the peninsula, in order, indeed, to make an update on 
that. As you know, this report has been made in a sort of 
distant monitoring. This is certainly not what is now the next 
step. The next step would be to be to go on the spot.
    We did the report, by the way, together with the High 
Commissioner on National Minorities of the OSCE, with our 
colleagues based in The Hague. And what we see, what we follow, 
is still alarming reports. Chairman Smith talked about the 
situation of the Crimean Tatars. I could add a couple of 
additional examples to that. We are very, very concerned here 
about the situation of the Crimean Tatars.
    In general, the whole problem is that, because of a lack of 
access to the situation there is not the possibility for any 
impartial watching and observation of the situation. We think 
that the latest reports on suppression of the activities of the 
so-called Mejlis, the congregation or parliament, the self-
governing body of the Crimean Tatars, as well as intimidation, 
expulsion or incarceration of prominent leaders of the Mejlis 
of the Crimean Tatar people, has and will have a detrimental 
effect on the exercise of political and civil rights. 
Intimidation is going on, and therefore it is very important 
that actors such as ODIHR and the OSCE Parliamentary Assembly 
keep this issue on the agenda.
    Mr. Pitts. Good. Now if you want to begin your conversation 
on Moldova, I'm interested in that, too. [Laughter.]
    Mr. Link. I'm sorry. That is way too late.
    No, I just wanted to--you mentioned rightly that Moldova is 
an area where we need, certainly, to be engaged and to assist 
the Republic of Moldova in a very critical time of its history. 
We are not engaged in controlling financial flows. That is not 
our mandate. We are a mandates-based organization. We can only 
work in the framework formatted. But certainly what we do--what 
we try to do is to help in institution building and certainly 
also in fighting corruption.
    Mr. Schweikert. Mr. Chairman and Member Pitts, if you'd 
allow me to----
    Mr. Smith. Please.
    Mr. Schweikert. Director Link, I guess the context I'm 
trying to sort of put that in--and I don't want to sound 
ethereal--is I look at a country like Moldova, which we have 
visited--you know, we all had some high hopes for in the 
direction they were going. And now, with the banking fraud. But 
it's more the concept of, as an organization where, OK, you've 
already shared with us that, what, only 10 out of the 57 
countries provide you formal data in bad acts towards 
designated populations. But there's a next level. If I see 
something such as we do in Moldova right now, or some of the 
stories that we've picked up at a very low level of financial 
situations in some of the frozen conflict areas, how do you as 
an organization not just be someone that documents bad acts or 
tries to get other groups to provide you the data and talk 
about them, but also how do we have a warning system that's 
saying, a mass banking fraud in Moldova, this could cause a 
cascade of a collapse of government, a cascade back towards a 
more totalitarian, this causes--these particular groups are at 
threat? And now take that all the way through Georgia and other 
places where you also have difficulty--I'm trying to 
understand, for those of us who try to advocate, is there a 
pre-warning system? Is there a tripwire? Is there something 
saying we're fearful this frozen conflict is about to no longer 
be frozen, understand the cascade effect of such a thing? So 
that helps put it in context.
    Mr. Link. Thank you, Congressman.
    Well, there is fortunately one very important element in 
Moldova, because there is still a local office of the OSCE. 
There is a local OSCE representative, Ambassador Michael 
Scanlan--by the way, seconded by the United States of America. 
So we are in close contact with him. And among others, this is 
also the job of the local office, to give information and early 
warning.
    We certainly--we have, as ODIHR, we have our formal 
instruments. We go there when we observe elections, then we go 
back. So we are not permanently there. But therefore, the hate 
crime reporting is so important, it is an element in mosaic.
    In close cooperation, we have convinced the parliament 
there, and with the help of a lot of stakeholders, for example, 
that they really need to improve in many ways how they treat, 
for example, history of the Holocaust. Moldova is one of the 
few countries now in that region having the 27th of January as 
an official Holocaust remembrance day. It was this year, for 
the first time, celebrated there in their parliament. So it is 
also some positive steps which we can note, but it's a very 
long way to go.
    But what you mentioned, the early warning in general, and 
to prevent worsening of the situation--cascade effects and 
whatever effects--they can be only fully operational--and let 
me say that very clearly, even if that transgresses a little 
bit my mandate, that can only work if OSCE is really on the 
spot. Therefore, the remaining officers on the spot are so 
important. They are the eyes and ears, in many ways, because 
they are permanently there--the office in Bosnia, the office in 
Yerevan, the office in Moldova, they are extremely important. 
And we work with these colleagues very closely.
    Independent of that, what we can do--and sometimes we get 
these requests from Moldova--is to give, as I said, opinions--
opinions on draft laws, on others. And these questions, these 
requests, can come both from government or from parliament, on 
both persons.
    Mr. Schweikert. I appreciate--and, Mr. Chairman, you know, 
maybe, you know, what is bouncing in my thoughts is, as I look 
at some of the economic stress in the region, the fear that 
there may be bad things that may happen to particularly certain 
populations. And it would be honorable to have an early warning 
system to maybe use what influence we have to step in before 
instead of reporting on it after.
    And with that, I yield back.
    Mr. Smith. Just a few final questions, unless my colleagues 
have any additional questions. Let me just ask you about 
Azerbaijan, if I could.
    Members of our Commission have twice now visited Baku. We 
met with President Aliyev in a rather lengthy meeting on human 
rights issues in his office on both occasions. When more 
individuals, including journalists, including Khadija 
Ismayilova, who was arrested and given a draconian jail term of 
over seven years for doing investigative journalist work--we 
put together a very comprehensive Azerbaijan Democracy Act, and 
I introduced it. And to me, the reaction by the Aliyev 
government, including the Parliament, has been startling--
foolhardy, in my opinion--because they have claimed things that 
are absolutely untrue. They claim that the Armenians put me, 
Chris Smith, up to it. The Armenians had absolutely no input, 
advance notice or anything else about the bill, nothing.
    So when I hear this coming from the Parliament and coming 
from major media and presidential spokesmen, I wonder about 
their credibility on other things because I know what we did, 
and the Armenians reacted to it long after the fact. They had 
no advance notice that we were even doing it, because it's all 
about human rights in Azerbaijan or the lack thereof. And so 
that took me by surprise in the sense that it was a very 
foolish response, and a false accusation, at that.
    There's no doubt that I have long been a strong believer 
that the Armenian genocide needed to be recognized, held a 
hearing on that more than 10 years ago, 15 years ago, that is, 
and then another one recently. But that doesn't mean that 
holding any country, including my own, our own, to account on 
human rights abuses is something that we shy away from.
    So your thought on that. I know the EU has sent one of 
their top human rights groups to investigate because again, 
Journalists Without Borders and other groups have been very 
critical of this crackdown on journalists, and it's not just 
journalists that are being thrown into prison, as you know so 
well.
    Maybe you could speak to Azerbaijan, because my hope is--
we're looking for reform, that's it. Let people out of prison 
who have committed no crime. When investigative journalists do 
things here, on corruption or anything else, they get prizes, 
Pulitzer prizes and a whole host of other awards. In 
Azerbaijan, they go to jail. So that would be the first 
question.
    The second again, if I could, on Nagorno-Karabakh, 
obviously one of the frozen conflicts. It seems to be an ever-
present tinderbox. Your thoughts on what might be done there to 
mitigate harm there on either side. We don't want to see anyone 
hurt, and there have been flare-ups very, very recently.
    And again on trafficking, I would like to share with you 
our International Megan's Law, which I think will work. I'm 
working with Ernie Allen and others. He used to be with the 
National Center for Missing and Exploited Children here. He's 
also been involved with the international version. And the 
belief is that if more countries had a better handle on where 
convicted sex offenders are, where they're living--if you were 
to go to online in your hotel later on today and put in any 
state, any township, any city in the United States under 
Megan's Law, you would find where these individuals are. The 
registry is a very, very effective means of helping to track to 
ensure that these individuals don't become soccer coaches or, 
you know, go to the Boy Scouts or Girl Scouts or whatever it 
might be, to prevent abuses of children. And now International 
Megan's Law will let Germany know when a convicted pedophile is 
traveling to your country. It's up to you to deny access or 
entry or to watch them.
    Two days ago I met with the Thai delegation for trafficking 
in persons. They themselves prevented 98 convicted pedophiles 
from the United States from coming into their country in 2014 
because they know where they're going. They're going to 
Bangkok, Phuket, all these other places, and they're going 
there to abuse Thai citizens, and especially children.
    So it's something we got into the Parliamentary Assembly 
resolution, as I think you know, strong language on Megan's 
Law. I'm going to do it again at the Tbilisi Parliamentary 
Assembly--hopefully, it will pass--to try to really get these 
protections. It's all about protecting kids and vulnerable 
individuals from these predators who have a high propensity of 
recommitting. So if you could take a look at that, we'll share 
that language with you. But if you could speak to those other 
issues as well.
    Mr. Link. Chairman, we would--that is one of the areas 
where we clearly have the intention, and not some when, but 
soon, really to intensify our activities. We need to take that 
very serious, protecting of children's rights, especially when 
it comes here to activities in the light of the increasing 
refugee crisis and of the increasing problems with human 
trafficking. That needs to be on the forefront of activities, 
and we will do that. We will develop additional programs in 
that end.
    We are very interested in the examples you mentioned. We 
are working closely, by the way, in this area as well with the 
Council of Europe. And there is, maybe you know, these very, 
very comprehensive new proposals by the Fundamental Rights 
Agency of the European Union, which does tremendous work in the 
area of children's rights. So there is a clear agenda for us 
here to follow up and to get even more active.
    On Azerbaijan, you mentioned the journalists. The 
journalists are key to early warning, by the way. A free media 
landscape, a free media press is part of the normal early 
warning process that should happen in a civil society. So if 
you shut down independent media, if you don't have a 
pluralistic approach in media as diverse as possible, then a 
society can go very, very wrong. Therefore, it is so important 
indeed here what, for example, the representative for the 
Freedom of the Media of the OSCE, our colleague Dunja 
Mijatovic, what she is doing, speaking out here and pointing to 
problems in the area of prosecution of journalists.
    We as ODIHR have repeatedly spoken out on limitations of 
our work when it comes to election observation and in our work 
with and for human rights defenders. We also mentioned the 
person you mentioned in your introductory statement, Khadija 
Ismayilova, and who was a participant in one of our meetings 
and then later on had problems after the meeting.
    So, certainly human rights defenders' activities in favor 
of and supporting civil society is absolutely crucial and we 
remain active certainly in that area also in connection with 
Azerbaijan. And we would like very much also in future to be 
able there to observe elections.
    On the Karabakh process itself, I cannot have an active 
input because we are not part of these negotiations there. But 
we can just hope that free elections are also helping to build 
confidence and security, because elections, it's not only about 
human rights. Yes, that is at the forefront and decision 
making, but free elections are also a confidence and security-
building mechanism.
    Look at the parliamentary elections in Ukraine shortly 
after the events on the Maidan and the presidential elections. 
That was an enormously important confidence and security-
building measure accepted by all 57 states in the OSCE because 
it was critically observed, and fundamentally observed also by 
ODIHR.
    All these things, if you apply these mechanisms right, they 
can, let me repeat it, also help to be a sort of not only 
classical human-dimension work but also have an aspect in the 
first dimension because it is also security--concretely 
security and confidence-
building.
    Mr. Smith. I just have one final question, and I thank you 
for your very incisive answers. It really is helpful to the 
Commission.
    We held a hearing in the Commission in September on the 
refugee issue and had a representative from the European Union, 
a man by the name of Pitterman, who is with the UNHCR, 
providing one of the biggest takeaway insights at that hearing 
as to why so many people were put to flight. He said that it 
was the gross underfunding--my word, but his sentiment--of the 
UNHCR's appeal, 40 to 45 percent year over year, so the refugee 
housing, medicines, food, education was on a shoestring; and 
that the trigger--his word--was that when the World Food 
Program cut the foodstuffs going to the refugees by 30 percent, 
the refugees said, we're out of here.
    And I'm wondering--you know, in all of our conversations, 
we need to make sure that those who still remain don't feel 
like they've been abandoned, because again, that's one of the 
systemic causes, the trigger, according to Mr. Pitterman. And 
you got your great inflow of refugees in part, at least if he 
has that right, and I think he does, because of an underfunding 
of refugee camps, and refugees are living outside the camps, 
but of concern for the UNHCR.
    Any thoughts on that? Or have we rectified that, do you 
think, as an international community of Germany, U.S., OSCE 
countries?
    Mr. Link. Well, we are just flagging very clearly--for 
example, there will be a large conference in two weeks in Rome 
on--OSCE conference in Rome on that where we will flag again 
that again the human rights in treating the crisis and the 
necessary funding are crucial; otherwise, people in the camps 
will leave the camps and will go on the trail.
    Mr. Smith. Right.
    Mr. Link. This is a logical consequence, if they are not 
feeling secure, safe, at least with a minimum degree of supply 
in the camps. Therefore, everything, what can be done to help 
Lebanon, Jordan, Turkey in that crisis is absolutely crucial.
    We are doing--we're flagging that. But here again, when it 
goes over the OSCE area, we have limited possibilities. So 
Lebanon, Jordan, that is certainly not a point where we can 
directly be active, but Turkey is certainly.
    Mr. Smith. Sure.
    Mr. Link. Yes, I have also myself visited several camps of 
refugees, and I think the efforts of Turkey to provide shelter 
for refugees need to be supported, need to be much more, even, 
supported because it is absolutely crucial that Turkey is not 
alone in giving shelter to the refugees in that situation and 
giving them also a shelter until, hopefully, one day they can 
return to Syria.
    Mr. Smith. Thank you very much. Anything else, David?
    Mr. Schweikert. May I?
    Mr. Smith. Yes, please.
    Mr. Schweikert. Thank you, Mr. Chairman. Director, do you 
believe in your area of authority, rule of law, promotion of 
rule of law is part of your mandate?
    Mr. Link. Oh, yes, absolutely.
    Mr. Schweikert. With that--and I can't take credit for the 
quote, I have to steal it from a staffer, sort of picturing the 
fine dinner party of a series of our Western European friends 
pounding on the dinner tables, saying, we need to find 
something to do about the corruption in Central Europe. And we 
have a great conversation about it, but not knowing if we have 
the same mechanisms that, when we come to try to promote 
democratic institutions and fidelity to honest elections, are 
we doing the same thing in showing up and institutions to 
ferret out, whether it be using technology or others, to 
eliminate corruption in some of the very countries that we've 
spent, you know, the last 20 years trying to bring into, shall 
we say, a conformity of civility?
    Mr. Link. I think we can be very concrete here. We talked a 
lot about Ukraine. We talked a lot about other countries. But 
all the reforms in the end will be wane if it is not possible 
to find the endemic corruption, for example, in that country. 
It is corruption which has been mentioned again and again. We 
all witnessed the latest political crisis around the possible 
stepping down of minister of economy and back and forth and 
back and forth. This is key. And it is not only key of the 
expectation of the U.S. or German or French citizens, it is key 
also to the expectations of Ukrainian citizens that this time, 
after Maidan, finally really something substantial is being 
done. And corruption can be fought. There are countries who 
showed it, who showed it very, very substantially. Take, for 
example, some--take our host country, Poland, where, in the 
1990s and in the early years of the 2000s, enormous progress 
has been made in fighting corruption, and that needs to be 
enforced.
    Mr. Schweikert. The Polish example is a brilliant one, and 
the ability to export, you know, the independent prosecutor 
model and some of those that were done there. Are we succeeding 
at populating that in--I'll go back to our Moldova or other 
countries in that region, because I have this intense fear that 
both during--if it were in a time of economic slowdown, with a 
layer of corruption, cascades of very bad things happen to 
people and it almost is a domino. If we allow one to exist, the 
next is coming.
    Mr. Link. Yes, but we should be careful because here this 
is a job which is never really finished. It comes back again 
and again.
    Mr. Schweikert. And it's a constant vigilance.
    Mr. Link. Exactly. A good point in case here can be, if you 
see the latest report, the latest progress that has been made 
in Romania in fighting corruption, that is really tangible. 
Maybe the pressure exerted on Romania by the European Union in 
order to become a member helps here.
    Mr. Schweikert. Where this continues is the movement right 
now in Montenegro and the discussions of how close do we, you 
know, pull it in--even in sort of a military umbrella, but we 
do know we have a series of--the corruption index is still 
quite too high to be acceptable to many of us. And being 
someone who, before getting this job, used to actually, even 
with a little gray hair, backpack through Serbia and Montenegro 
and those things, and, you know, I've never accidentally left 
cash in my passport so I could get, you know, certain things. 
But, OK, that's petty in the scale of the world we look at, but 
that's not--I mean, these are countries we're having 
discussions with on security compacts and yet we still have 
concerns about corruption. So I'm just --in future 
conversation, maybe, what else can we do? Should we be 
providing other resources or other mechanisms?
    And then there's a one-off. Later this year under the 
parliamentary elections in Russia, what input do you believe 
you'll have?
    Mr. Link. Let me briefly just finish the part with fighting 
corruption. For us, that is something we can partially deal 
with, partially support. Unfortunately, we have no legal ways 
to enforce because the commitments in the OSCE are political 
ones, but we can raise our voice. And therefore, I also 
personally, also publicly in numerous occasions, raised it 
especially in connection with fighting corruption.
    Mr. Schweikert. I know this is--and I'm speaking off the 
cuff, and I know how dangerous that is, because how often, 
particularly with the professional staff in here, have you had 
to apologize for things your members say? I look at some of the 
model that we've seen happen in Central America now, where the 
ability to prosecute, to pursue bad actors who are within the 
governmental structures, could not be done internally, so they 
actually brought in external prosecutors. Is it time to start 
looking at that model and promoting it in the organization?
    Mr. Link. I think it is mostly time to reform the judiciary 
in general in Ukraine, because--
    Mr. Schweikert. And I see this much more than just Ukraine.
    Mr. Link. External prosecutors can be a possibility, yes, 
certainly. But what we underline is that there is a serious 
effort to do it. We don't recommend a special model, but it 
needs to be tackled. I mention only Ukraine because this was 
the topic of the last two weeks, especially began and the 
actual topic. The other countries can be equally mentioned. You 
could mention Georgia, where whole parts of the judiciary have 
been replaced and there are substantial--all the police, for 
example, the famous example with the traffic police, which 
worked actually very well. That has been emulated also in 
different places. So sometimes these harsh measures are really 
needed in order to do the trick.
    Mr. Schweikert. And in that case, have we done--I thought a 
couple years ago we did a quality job praising Georgia for 
doing that, the EU Economic Compact or--and forgive me if I use 
the wrong title--you know, its rewards and those things. So, 
hopefully there has been some, as our colloquialism is, carrot 
and stick.
    Mr. Link. Certainly incentives are important. Incentives 
are extremely important in order for some people really to have 
the courage to do the necessary work. Incentives are important. 
That means also encouragement from the outside. And as I 
mentioned--that is why I mentioned the EU example with Romania, 
very clear sequencing of measures. If there is a real ongoing 
fight on corruption, then future measures of integration in the 
EU can be possible. So this, I think, was good sequencing.
    Regarding to the Russian Federation----
    Mr. Schweikert. And that will be my last.
    Mr. Link. ----Regarding to the Russian Federation, indeed 
elections are coming up on the 18th of September, so two large 
elections in the second half of the year: Russian Federation, 
U.S. general elections. And we indeed, therefore, are in close 
contact and we will certainly be ready to observe. And 
therefore we hope very much that there will be the possibility, 
and we count on that, for unrestricted access for our observers 
in Russia.
    Mr. Schweikert. All right. Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Before we close, again, Director Link, thank you for 
providing us so many extraordinary insights and thank you for 
the work you're doing.
    You know, in talking about corruption, Spencer Oliver has 
just joined us. Spencer did yeoman's work, exemplary work as 
Secretary General of the OSCE Parliamentary Assembly for 
decades, was one of those who helped conceive the very idea. 
And I have traveled and other members have traveled with 
Spencer, even when he was with our Commission, into the Soviet 
Union during the darkest days on behalf of political prisoners, 
as the Duma was matriculating from members being appointed to 
being elected.
    We had probably the most interesting roundtable, three days 
of roundtable discussions with members of the Duma before they 
had to subject themselves to a popular election. And I'll never 
forget in one of our roundtables a member of the Duma saying--
we were talking about press freedoms and what happens when you 
are criticized, which we all are here, and you are in Germany 
frequently. And when we gave answers about writing op-eds and 
the like, a member of the Duma said, shouldn't they just go to 
the gulag? It was a very insightful authoritarian dictatorship 
orientation.
    But Spencer actually put together a conference on--in 
Bucharest, in the house that Ceausescu built--on corruption as 
the hijacker, really, of democracies. And it was an 
extraordinary conference. So your points about corruption in 
your answers, Director Link, thank you for that. Because that's 
why we're raising issues vis-a-vis Aliyev, because that's what 
some of the journalists, including the Radio Free Europe 
journalist was raising: Where did all that money come from? And 
just for doing that, they found themselves in prison with a 
seven-year-plus sentence.
    Thank you for joining us. And thank you, Director Link, for 
being here. The hearing's adjourned.
    Mr. Link. Thank you very much for all the cooperation, for 
the strong support for ODIHR.
    [Whereupon, at 2:22 p.m., the hearing was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Hon. Chris Smith

    Good afternoon and welcome to everyone joining us today, especially 
Ambassador Michael Link, Director of the OSCE's Office of Democratic 
Institutions and Human Rights. Today we'll discuss several human rights 
crises in Europe and Eurasia. With the collapse of the Soviet Union and 
end of the Cold War, many people expected that freedom, democracy, and 
peace, would spread throughout Europe and Eurasia. And yet now, the 
religious freedom of Christians, and people of other faiths, is being 
regularly violated. Russia invaded its neighbor Ukraine, illegally 
annexed Crimea, and is fueling and funding violent proxies in the 
eastern Donbas region of that country. Deadly anti-Semitism is again 
stalking European Jewish communities. The worst refugee and migrants' 
crisis in Europe since World War II has engulfed the continent. 
Autocrats are using the law, and acting outside the law, to crush 
democratic opposition to their despotism.
    Violent anti-Semitic attacks increased 100 to 400 percent in some 
European countries between 2013 and 2014. Anti-Semitism, and the evil 
goal of killing Jewish people, is hardwired into ISIS and those it 
inspires. Perhaps no other group in Europe is more at risk from ISIS 
attacks than the European Jewish community. That is why I authored 
House Resolution 354 as a blueprint for vital actions that are needed 
to prevent another Paris, Brussels, or Copenhagen. The House of 
Representatives passed it unanimously and I intend to hold a hearing 
over the coming weeks to explore what is necessary to ensure these 
actions are taken.
    In Crimea, the occupying authorities have targeted and retaliated 
against the Crimean Tatar people for opposing the annexation and the 
rule that has followed. Crimean Tatars have been arrested, detained, 
interrogated, and sometimes charged with extremism, illegal assembly, 
or belonging to an unregistered religious group. Religious minorities, 
including the Ukrainian Greek Catholic Church, have likewise been 
repressed. Crimeans who opposed or oppose the Russian takeover of 
Crimea, or have been unwilling to seek a Russian passport, have been at 
risk of a crackdown. Restrictions have proliferated, including even on 
the teaching of the Ukrainian language or access to Ukrainian culture.
    Repression is also rife in Azerbaijan. The Commission recently held 
a hearing on the terrible plight of political prisoners in Azerbaijan, 
particularly the imprisonment of Radio Free Europe/Radio Liberty 
journalist Khadija Ismayilova. According to the Committee to Protect 
Journalists, Azerbaijan leads all of the countries in Eurasia in 
jailing journalists. In 2015, the government imprisoned many well-known 
activists, including Anar Mammadli, the courageous head of EMDS, the 
leading election monitoring organization in Azerbaijan. He spoke the 
truth about the fraudulent 2013 presidential election and is still 
paying the price. I met with Anar's father--a very gentle man--just a 
few months after Anar was arrested and saw how Anar's family is 
suffering from this injustice.
    More than 40 years ago, all the countries of Europe, the United 
States, and Canada, formed the Conference on Security and Cooperation 
in Europe, to prevent and respond to these kinds of crises. Today we 
will hear about how the Organization for Security and Cooperation in 
Europe, the successor to the Conference, is responding to these 
challenges. Our witness is Ambassador Michael Georg Link, Director of 
the OSCE's Office of Democratic Institutions and Human Rights--ODIHR 
for short.
    Director Link has held this position since July of 2014 and has 
been an excellent, effective director. Previously, he was Minister of 
State for Europe in the German government, focusing on the OSCE, EU, 
Council of Europe and NATO. From 2005 to 2013, Director Link was a 
Member of Parliament in the German parliament, and for most of that 
time, he was an active member of the OSCE Parliamentary Assembly, a key 
part of the OSCE. He is a former chairman of the supervisory board of 
the Center for International Peace Operations (ZIF), the board of the 
German Foundation for Peace Research and a past council member of the 
Foundation for 
German-Polish Cooperation. Director Link continues to be active in 
international NGOs, including the German Council on Foreign Relations, 
the German Association for Eastern European Studies, the Southeast 
Europe Association, and the German Atlantic Association.
    Director Link, thank you for being here today. We look forward to 
your testimony.

               Prepared Statement of Hon. Benjamin Cardin

    I welcome today's hearing with Michael Georg Link, the Director of 
the OSCE's flagship institution for the protection and promotion of 
human rights.
    Director Link, every OSCE participating State, including my own, 
has freely undertaken a body of commitments to respect fundamental 
freedoms, to build democratic institutions, to safeguard the rule of 
law, and to protect minorities. None of us has a perfect record; none 
of us can ever consider the job done. For that reason, one of the most 
important commitments of the Helsinki Final Act comes from the 1991 
Moscow Document:
    ``The participating States emphasize that issues relating to human 
rights, fundamental freedoms, democracy and the rule of law are of 
international concern, as respect for these rights and freedoms 
constitutes one of the foundations of the international order. They 
categorically and irrevocably declare that the commitments undertaken 
in the field of the human dimension of the [OSCE] are matters of direct 
and legitimate concern to all participating States and do not belong 
exclusively to the internal affairs of the state concerned.''
    Unfortunately, in the years since the Moscow Document was adopted, 
Russia has created a model for anti-democratic measures. It has 
violated the territorial integrity of Georgia and Ukraine, supports 
extremist parties outside of Russia and, in effect, represents the 
greatest threat to human rights and democracy in Europe and Eurasia.
    Just two weeks ago, on January 31, Chechen Republic leader Ramzan 
Kadyrov--who was appointed by Vladimir Putin--posted a surveillance-
style video of former Prime Minister Mikhail Kasyanov and Vladimir 
Kara-Murza as if the two men are viewed through the scope of a rifle. 
This video, and its accompanying text, are widely understood as a death 
threat.
    The fact is that critics of the Kremlin are assassinated at an 
alarming rate. Vladimir Kara-Murza nearly died last year after being 
poisoned. Kasyanov has assumed the leadership of a leading opposition 
party that was previously headed by Boris Nemstov. Nemstov was 
assassinated near Red Square in Moscow early last year while preparing 
a report documenting Russian troop involvement in the war in Ukraine, 
contrary to the Russian Government's assertions. In October 2015, Kara-
Murza testified at a Helsinki Commission hearing on the rule of law in 
Russia. I deplore the death threats made against these two men.
    The threats against Kasyanov and Kara-Murza are more than the 
latest salvo in Russia's attacks on civil society. They are clearly 
intended to send a warning message to any and all in the political 
opposition before parliamentary elections in September. As such, they 
are also an attack on commitments to free and fair elections that the 
Russian Federation has freely undertaken in the Helsinki process.
    I am keenly aware that many OSCE participating States have called 
on the Office for Democratic Institutions and Human Rights to do more--
even while they are giving less. The OSCE as a whole faces acute 
challenge across the region and I believe the organization must be 
given resources commensurate with the tasks assigned by the 
participating States.
    The refugee and migrant crisis is at the forefront of these 
challenges, and continues to test not only OSCE participating States in 
Europe, but also OSCE Partner States and neighboring countries. I 
welcome an assessment from you on your recent efforts to monitor human 
rights concerns related to the crisis and your recommendations on how 
the OSCE and participating States can play a greater role in 
transferring knowledge gained during earlier conflicts that resulted in 
significant refugee streams.
    In my capacity as OSCE PA Special Representative on Anti-Semitism, 
Racism, and Intolerance, I have been monitoring the hateful reaction to 
the influx of refugees and migrants, often from officials in countries 
whose own nationals had been given refuge in the past to escape from 
war or oppression. Racism and anti-Muslim bigotry are key obstacles to 
moving policy making beyond border security to long-term integration 
and resettlement efforts. I welcome efforts to partner with you on 
initiatives, including combating hate and racial or religious profiling 
by law enforcement.
    Of course, these are issues that I am not only monitoring abroad, 
but also here at home in the United States and in Maryland. I have 
introduced a legislative package known as the BALTIMORE Act, which 
would help communities nationwide by ``Building And Lifting Trust In 
order to Multiply Opportunities and Racial Equality'' (BALTIMORE). The 
Act would make a number of critical law enforcement reforms, including 
ending discriminatory profiling and insisting on state and local 
accountability for law enforcement officers. I am pleased that a number 
of provisions consistent with the BALTIMORE Act and my Law Enforcement 
Trust and Integrity Act were included in the FY '16 omnibus 
appropriations measure.
    As we observe Black History Month in February and the International 
Decade for People of African Descent, I commend ODIHR's efforts to 
identify and support practical measures to combat hate crimes and other 
forms of bigotry impacting persons of African descent in the OSCE 
region. I hope that the OSCE will continue to address racism and 
xenophobia and build coalitions across communities to combat hate.
    ODIHR's work in defense of vulnerable populations, from Roma to 
religious minorities to refugees, is a cornerstone for stability of the 
region and reflects the core humanitarian commitments of the Helsinki 
Final Act.
    Your leadership in expanding OSCE efforts to combat anti-Semitism 
in the aftermath of some of the most heinous attacks on the Jewish 
community in recent history is laudable. I look forward to working with 
you and your staff on this momentous effort.
    Among OSCE institutions, the ODIHR has a partner in the OSCE 
Parliamentary Assembly. It has always been our view that each brings 
their own unique contribution to a common goal, and the Helsinki 
Commission actively engages in the activity of both. We are 
particularly proud of the efforts of Spencer Oliver, the recently 
retired Secretary General of the OSCE PA, to make sure that the 
Assembly is integrated into the OSCE diplomatic framework. We hope 
cooperation between the ODIHR and the Assembly continues. The Assembly 
can bolster the ODIHR as it faces recalcitrance from the participating 
States resisting democratic transition. The coordinated response to 
Azerbaijan's attempt to condition election observation is a case in 
point, and many of the parliamentarians are outspoken human rights 
advocates. I would welcome the Director's thoughts on intensified 
cooperation between the OSCE PA and ODIHR.
    Unfortunately, Azerbaijan has distinguished itself negatively by 
the large number of people it has imprisoned in violation of Principle 
VII of the Helsinki Final Act, which recognizes the right of 
individuals to know and act upon their human rights. While I am 
heartened that Leyla and Arif Yunus have been released from prison, I 
urge the government of Azerbaijan to drop all charges against them and 
allow them to leave the country for medical treatment.
    While our focus in the OSCE has shifted to more problematic regions 
and countries, one legacy of the Balkan conflicts of the 1990s is the 
Organization's relatively strong presence in the region. The improved 
performance of Western Balkan countries in the last two decades can be 
credited, in part, to the ongoing engagement of the OSCE--but the work 
to be done in the region is not complete.
    At a time of renewed tensions between Russia and the West, as well 
as dwindling enthusiasm by European and Euro-Atlantic structures to 
enlarge membership, several of these countries feel they are in a state 
of limbo--not becoming part of Europe but being kept on its perimeter--
with little incentive to make serious progress to achieve their 
aspirations for integration. Migrants and refugees transit the region, 
nationalism remains a potent force, and local populations can be 
vulnerable to violent extremism. Some countries face political crises 
and may be losing ground in terms of implementing Human Dimension 
commitments. I would like to hear the Director's views on how ODIHR can 
respond to the challenges in the region, perhaps with additional focus 
on preparations for the Macedonian elections in a few months.
    Finally, I want to commend you for your excellent stewardship of 
the Europe's largest annual human rights meeting, held every year in 
Warsaw, and your leadership on the full range of commitments to protect 
human rights and democratic institutions and to combat discrimination 
and bigotry.

                Prepared Statement of Michael Georg Link

    Dear Chairman Smith, Esteemed Members of Congress, Commissioners, 
Ladies and Gentlemen,
    It is a great pleasure and an honour for me to speak in front of 
you today. As you know, the Office for Democratic Institutions and 
Human Rights will be celebrating the 25th anniversary of its foundation 
this year, and I can only thank you for your continuing interest and 
support of our work in all these years. It was the United States 
government who proposed to create specialised OSCE institutions to 
assist participating States in the implementation of their human 
dimension commitments a quarter of a century ago, and I am happy to 
report that this commitment to our work has never faded. We truly 
appreciate the fact that this Commission has always kept human rights 
and the human dimension of security at the top of the OSCE's agenda.
    In the 25th year of our existence, the scope of our work is as 
broad and as deep as ever. Whether in the fields that we are probably 
most known for, election observation or fighting anti-Semitism, or in 
the areas of fighting discrimination against Christians or Muslims, 
fostering integration of the Roma minority or combating trafficking of 
human beings, our extremely dedicated and able team of experts is able 
to offer a very broad set of activities in assisting our participating 
States, despite ever dwindling resources.
    Let me, however, start by expressing a serious concern of mine: I 
am deeply troubled about the decreasing attention human rights are 
receiving in the OSCE.

    <bullet>  The OSCE is a major regional organization whose very 
essence is to connect Human Rights to Security, but its commitments in 
the field of human rights are less and less respected in numerous 
participating States.
    <bullet>  The OSCE is about connecting Human Rights to Security, 
but it is no longer able in its Ministerial Meetings to agree in 
consensus on new texts in its human dimension.
    <bullet>  The OSCE is about connecting Human Rights to Security, 
but its main institutions in the human dimension like ODIHR are not 
funded properly in order fulfill their mandates.

    That is why our work depends more and more on extrabudgetary 
funding outside the official OSCE budget and I would like to ask you 
for your support to continue ODIHR's work, driven by our common values.
    This is, for example, the fight against anti-Semitism. As 
Ambassador Power put it last year at the 2014 Berlin declaration 
commemorative event: rising anti-Semitism ``is often the canary in the 
coal mine for degradation of human rights more broadly.'' All OSCE 
participating States agree on this principle: anti-Semitism is indeed a 
worrying signal for human rights overall.
    Anti-Semitism was first condemned in an OSCE document in 1990. 
Other declarations have been adopted afterwards, including the 2004 
Berlin declaration, reinforced 10 years later by the Basel Ministerial 
Council decision. In this decision, participating States have expressed 
their concerns about the rise in anti-Semitic incidents. They declared 
unambiguously that international developments, including with regard to 
the situation in the Middle East, never justify anti-Semitism. In 
addition, they called for enhanced efforts in combating anti-Jewish 
hatred, including through education and remembrance of the Holocaust, 
and in monitoring, reporting and investigating of hate crimes.
    ODIHR's activities today revolve around three pillars that are 
constantly mentioned in our commitments: hate crimes, education, and 
Holocaust remembrance.
    First, hate crimes. Anti-Semitic hate crimes remain a challenge 
throughout the region. A recent attack against a Jewish man in France 
has opened a debate on the opportunity to wear religious symbols. In 
the US, civil society organisations have reported an increased number 
of registered anti-Semitic incidents on college campuses. ODIHR has a 
strong mandate to collect and report on hate crime data and on capacity 
building for law enforcement. Unfortunately, only 10 of the 57 
participating States have submitted official information on anti-
Semitic hate crimes for the latest reporting cycle, whereas civil 
society information covered 29 countries.
    The second pillar of our work against anti-Semitism is related to 
the development of educational materials which are shaped by the local 
reality. Our teaching materials have been implemented in 12 
participating States, with the potential for expansion to additional 
countries. This teaching material is more than ever important today, 
when expressions of anti-Semitism on the internet are various, and 
often go hand in hand with declarations that aim at rewriting Second 
World War history and its atrocities.
    This leads me to the third pillar of our work in this field--
Holocaust remembrance. To date, 34 participating States commemorate the 
Holocaust on 27 January, while many countries hold commemorations on 
different days. In almost two thirds of OSCE participating States, at 
various levels of education, children are taught about the tragedy of 
the Holocaust.
    Where education and remembrance do not suffice, we should 
strengthen our efforts in ensuring the security of Jewish communities.
    All these pillar will be combined in our newest project, called 
``Turning words into action.'' This project is set out to help turn 
these words into action by providing government officials, 
parliamentarians and civil society with the knowledge and skills they 
need to effectively address anti-Semitism. It will enable governments 
to respond to the security needs of Jewish communities, counter anti-
Semitism through education and finally foster coalition building. The 
project was made possible thanks to a generous contribution of the 
German government--thus giving an excellent example of how countries 
can support ODIHR's work through extra funding.
    We would like to do more of this work, for instance in the field of 
fighting discrimination of Christians--a topic of huge importance in 
the OSCE states to which I am personally very committed. With more 
funds, ODIHR would be able to do much more work in this field.
    Let me give you an update on our activities in Ukraine, where we 
are very active in different areas. The situation in the country is 
still difficult, despite some progress made in the past two years. We 
need to redouble our efforts to stabilize the country through reform.

    <bullet>  We are supporting reform in Ukraine through strengthening 
its civil society.
    <bullet>  We are supporting reform in Ukraine through observing its 
elections and giving recommendations on how to improve in this area.
    <bullet>  We are supporting reform in Ukraine through giving legal 
advice to the parliament on how best draft laws in accordance with 
international human rights standards.
    <bullet>  We are supporting reform in Ukraine in bringing religious 
communities together, to become engines of national dialogue.

    Let me stress on two points:

    1. The human rights situation on Crimea is deeply worrying. Despite 
not having been granted access, ODIHR was able to publish a 
comprehensive report on the situation six months ago, a strong document 
showing the difficult state of the rights of national minorities and 
other citizens. We are ready to follow up on this report, but for this 
we need access for ODIHR monitors.

    2. We have to make all possible efforts to bring peace to this 
country. I believe that the so called Minsk package, agreed upon last 
year, is still the best way to achieve it. ODIHR stands ready to do its 
part in observing possible local elections in the conflict areas of the 
Donbas regions as part of a political settlement. But these elections 
are contingent upon a sustainable ceasefire and the political will to 
hold them. The equation is simple: Where there is war, there is no 
voting. Elections are only possible where there is peace: ``Bullets 
have to be replaced by ballots.'' We therefore fully share the view of 
the German Chancellor, who reconfirmed last week after her meeting with 
the Ukrainian President, that a ceasefire was the essential pre-
condition for the implementation of the Minsk package.

    In conclusion, Mr. Chairman, let me thank you and this Commission, 
as well as the United States of America, for their support to our 
activities. I would be very happy to answer your questions now.
    Thank you.

                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================

                  Prepared Statement of Brian Ardouny

    Chairman Smith, Co-Chairman Wicker, distinguished Commissioners, 
the Armenian Assembly of America (Assembly) welcomes today's important 
hearing. We share the concerns of the Commission with respect to 
threats to religious freedom and the rule of law as well as the specter 
of anti-Semitism, whether in Europe or beyond.
    The Assembly especially appreciates the Commission's ongoing 
vigilance in shining a bright light on human rights violations in an 
effort to bring about much needed change and to protect religious and 
minority communities. In particular, we remain deeply concerned about 
the safety and well-being of Christians and other minorities at risk in 
the Middle East and elsewhere. As ISIS continues its brutal targeting 
of innocent civilians, images of which evoke the horrors of the 
Holocaust, the Armenian Genocide, and other crimes against humanity, it 
reminds us all about the urgent challenges before us and the need to 
redouble our efforts to prevent atrocities from occurring.
    We also appreciate the work of the Organization for Security and 
Cooperation in Europe (OSCE) and its Office for Democratic Institutions 
and Human Rights (ODIHR), as well as the OSCE Minsk Group which seeks 
to find a peaceful resolution to the Nagorno Karabakh conflict. We 
welcome the introduction of the Azerbaijan Democracy Act of 2015 by 
Chairman Smith, which sends a strong message that the United States 
takes the defense of human rights and fundamental freedoms seriously.
    As the Commission is aware, the Assembly remains deeply concerned 
about the authoritarian regime in Azerbaijan, its jailing of 
journalists and abandonment of democratic values, and the impact it has 
on the region, particularly for America's ally Armenia. Unfortunately, 
these authoritarian trends have spilled over into the OSCE-mediated 
Nagorno Karabakh peace process wherein the Azerbaijani government 
continues to violate the 1994 cease-fire agreement at an alarming rate 
and with more powerful weaponry.
    According to reports filed with the United Nations (UN) and the 
OSCE, there were over 11,500 cross-border violations committed by 
Azerbaijan against Armenia from 2014 through 2015, constituting an 
estimate of more than 200,000 shots fired. In Armenia's Tavush region, 
a kindergarten has been the repeated target of sniper fire. This is an 
outrageous violation. The targeting of innocent civilians and children 
must end.
    With respect to the line of contact between Nagorno Karabakh and 
Azerbaijan, there have been over 54,000 cease-fire violations committed 
by Azerbaijan during the same period. These violations constitute an 
estimated total of nearly 1 million shots fired.
    Some of the weapons used by Azerbaijan in its attacks against 
Armenia and Nagorno Karabakh in 2014-2015 include: grenade launchers, 
large caliber machine guns, large caliber sniper weapons, mortars, and 
howitzers. Not surprisingly 2014 and 2015 have been marked by increased 
civilian deaths and casualties. The OSCE Minsk Group Co-Chairs in a 
Joint Statement in December 2015 said ``there is no justification for 
the death and injury of innocent civilians.'' ``We especially condemn 
the use of mortars and other heavy weaponry,'' the joint statement 
highlighted ``and regret deeply the civilian casualties these weapons 
have caused.''
    These violations constitute a clear disregard for the rule of law 
and pose a direct threat to fundamental freedoms. Given these egregious 
violations, the Assembly welcomed last year's initiative by House 
Foreign Affairs Committee Chairman Ed Royce and Ranking Member Eliot 
Engel to address the dramatic increase of deadly cease-fire violations. 
In their letter to Ambassador James Warlick, U.S. Co-Chair of the OSCE 
Minsk Group, they called for three concrete steps to be taken. These 
include: (1) an agreement from all sides not to deploy snipers along 
the line of contact; (2) the placement of OSCE-monitored, advanced 
gunfire-locator systems and sound-ranging equipment to determine the 
source of attacks along the line of contact; and (3) the deployment of 
additional OSCE observers along the line of contact to better monitor 
cease-fire violations. The letter was signed by 85 Members of Congress.
    We hope that these recommendations are implemented to help ensure 
the safety and security of the people of Armenia and Karabakh. Further, 
we strongly urge the Commission to support this important initiative by 
convening a special hearing to examine the scope and nature of these 
violations as well as review steps needed to bring about a peaceful 
resolution of the conflict. The United States has a vested interest in 
advancing peace and bringing stability to the region--and a key to 
stability is respect and adherence to the fundamental tenets of the 
rule of law and human rights.
    Chairman Smith and Co-Chairman Wicker, we commend you for holding 
this hearing and look forward to working with the Helsinki Commission 
on these and other pressing issues as we pursue shared values in 
promoting democracy, respect for human rights, and the rule of law.

                                 [all]





                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
